AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Gas Centrifuge Enrichment Plant
 Cleanup Project at Portsmouth




 DOE/IG-0678                                March 2005
REPORT ON THE GAS CENTRIFUGE ENRICHMENT PLANT CLEANUP
PROJECT AT PORTSMOUTH




TABLE OF
CONTENTS


  Gas Centrifuge Enrichment Plant Cleanup Project

  Details of Finding                                1

  Recommendations and Comments                      4


  Appendices

  1. Objective, Scope, and Methodology              6

  2. Prior Audit Reports                            7

  3. Management Comments                            8
GAS CENTRIFUGE ENRICHMENT PLANT CLEANUP PROJECT

GCEP Cleanup    The Department's accelerated GCEP cleanup activities (GCEP
Project Plans   Cleanup Project) included an estimated $17 million for
                non-cleanup related activities that appear to be outside the scope of
                the agreement with USEC. Specifically, the Department plans to
                incur costs for actions taken to vacate GCEP facilities currently
                used for ongoing Departmental missions and for a change in the
                centrifuge machine dismantlement strategy to accommodate
                USEC's schedule.

                                         Vacating Facilities

                To comply with USEC's American Centrifuge Program plans, the
                transfer of certain GCEP facilities to USEC will require the
                Department to relocate missions and personnel housed in the
                facilities to other on-site locations. The Department originally
                intended to retain these facilities in support of on-site operations or
                until the cleanup mission at the Portsmouth Gaseous Diffusion
                Plant (Portsmouth) was completed. To accommodate USEC,
                however, the Department now plans to spend $14 million on this
                effort. In particular:

                   •   The Department plans to spend $5 million to relocate office
                       space and maintenance shop missions. Relocation
                       activities include moving personnel, office furniture, shop
                       equipment, computers, and telephones. Before the
                       relocations occur, the replacement office space, rest rooms,
                       locker rooms, document storage areas, maintenance shops,
                       training facilities, and laboratories will be repaired or
                       renovated. Carpet, ceiling tiles, and lights will be replaced,
                       interior surfaces painted, and fire alarm, sprinkler, and
                       computer network systems will be inspected and modified,
                       as needed.

                   •   The Department also plans to spend almost $9 million to
                       vacate areas currently used for waste management and
                       storage. These vacating activities include moving waste
                       not yet ready for disposition to other locations, performing
                       surface decontamination of the storage area, and
                       negotiating Resource Conservation and Recovery Act
                       (RCRA) closure certification. Program officials must then
                       establish a replacement RCRA storage area and acquire
                       office space for waste management operations elsewhere at




Page 1                                                             Details of Finding
               the site. Planned building repairs and modifications to the
               replacement storage area will include inspection and corrective
               maintenance on the electrical, plumbing, and communication
               systems, installation of a 10,000 square foot storage pad, as
               well as the negotiation of a new RCRA permit.

                                  Dismantlement Strategy

            The Department will also pay an estimated $3 million to move
            centrifuge machines prior to their dismantlement in support of the
            American Centrifuge Program schedule. According to a USEC
            proposal, over 1,300 centrifuge machines and associated process
            piping, support equipment, and structures must be disassembled
            and removed to allow for construction and operation of its pilot
            plant, the Lead Cascade demonstration facility. Initial cleanup
            plans called for the machines to be stored in their current locations
            until they were ready for disassembly. However, after determining
            that the machines needed to be moved earlier to meet USEC's Lead
            Cascade construction milestone, the Department agreed to transfer
            the machines to a temporary storage location at a cost of $3
            million, pending dismantlement.

            In commenting on our draft report, management stated that the
            Department had made an earlier decision to aggressively explore
            how the workforce and facilities at the Portsmouth site could
            continue to serve the national interest, including making the GCEP
            facilities available for commercial reuse. As a result, the
            Department believes that, absent the agreement with USEC,
            making the facilities available for reuse would still mean
            completing most of the activities we characterized as avoidable.
            However, in our judgment, it is unlikely that the Department would
            have spent the $5 million to relocate personnel and renovate
            additional facilities while they were still in use for mission-related
            activities. In addition, since the waste stored in the GCEP facility
            was scheduled to be removed by 2007, the $9 million in additional
            waste management costs would have been largely unnecessary.

Agreement   Expenses beyond normal decontamination and decommissioning
Execution   costs will be incurred because the June 2002 agreement between
            USEC and the Department did not provide detailed analyses
            clearly outlining the division of costs. In addition, the Department
            had not developed a comprehensive baseline for accelerated GCEP
            cleanup.




Page 2                                                       Details of Finding
                                June 2002 Agreement

         Although the June 2002 agreement with USEC indicated that the
         Department was to pay for normal decontamination and
         decommissioning costs, the agreement was not clear on the cost
         division for non-cleanup activities. Management stated that the
         Department developed a plan to clean up the GCEP facilities in
         2000 when a Department-funded gas centrifuge plant was being
         considered. However, once the June 2002 agreement was made for
         USEC to deploy the centrifuge plant, the cleanup plans were not
         updated to identify which activities were considered normal
         decontamination and decommissioning and which were USEC's
         responsibility. As a result, the Department's project plans did not
         require USEC to pay for non-cleanup costs incurred during
         accelerated cleanup and facility transfer. Had specific cost
         responsibility for all activities been identified and appropriately
         assigned, non-cleanup costs incurred by the Department could
         have been avoided.

         During our review, we held several discussions with site-level
         managers regarding the Department's obligations, as stated in the
         June 2002 agreement with USEC. These officials acknowledged
         that the costs we identified are inconsistent with the agreement but
         that the Department's unwritten policy had been to pay these costs.
         In support of their position, these program managers cited a press
         release and a budget submittal to illustrate their viewpoint. The
         budget document detailed the Department's intention to assume
         responsibility for the out-of-scope activities we identified, and
         these activities were subsequently funded through the Fiscal Year
         2004 congressional appropriation. Program managers, however,
         agreed that a formal determination of the Department's cost
         responsibilities, under the June 2002 agreement, would be
         beneficial.

                                   Project Baseline

         The Department also had not implemented a project baseline to
         ensure that costs incurred were appropriate and in accordance with
         the agreement. A project baseline, against which project
         performance would be measured, is the primary instrument for
         controlling changes to the technical scope, cost, and schedule.
         While project cost estimates and schedules were prepared, a
         comprehensive programmatic baseline had not been developed
         more than two years after signing the agreement to accelerate
         cleanup at Portsmouth. According to the Office of Environmental



Page 3                                                   Details of Finding
                       Management, (EM) delays in formal baseline development were
                       due in part, to management transitions from the Oak Ridge
                       Operations Office to a new office in Lexington, Kentucky. EM
                       stated that a comprehensive baseline had been prepared subsequent
                       to the issuance of a draft of our report, and was awaiting final
                       approval. In EM's view, this baseline, developed in response to
                       our suggestions and as a result of the stabilization of GCEP
                       facilities for reuse, should address many of the concerns voiced in
                       this report.

Cost and Performance   As discussed previously, the Department will incur up to
Impacts                $17 million in non-cleanup costs during the early stages of the
                       GCEP Cleanup Project. These costs include the $14 million to
                       relocate Department missions and the $3 million attributable to
                       changes in centrifuge machine dismantlement strategy. The
                       Department is also at risk of increasing the project's life-cycle
                       costs by incurring an additional $16 million in non-cleanup costs
                       for activities conducted in support of USEC's American Centrifuge
                       Program. Specifically, the Department estimates that it may cost
                       almost $11 million for construction and relocation activities if
                       USEC requests additional office space for its commercial
                       operations. Similarly, the Department will likely pay about $5
                       million to move the GCEP facilities' central heating system since
                       the main component of this system is located in space requested
                       for USEC's full-scale American Centrifuge Plant.

RECOMMENDATIONS        To ensure that expenditures are limited to those cleanup costs for
                       which the Department is specifically responsible, we recommend
                       that the Assistant Secretary for EM require the Manager,
                       Portsmouth/Paducah Project Office to:

                           1.   Identify the activities necessary, based on Department
                                policy and project requirements, to complete the GCEP
                                Cleanup Project and formally assign responsibilities for
                                costs to the appropriate party; and,

                           2.   Develop a comprehensive baseline to carry out the
                                Department's responsibilities for the GCEP Cleanup
                                Project.

MANAGEMENT             The Assistant Secretary for Environmental Management
REACTION               concurred with the recommendations, but suggested that they be
                       modified to encompass the Department's corporate objective to
                       explore how the workforce and facilities at the Portsmouth site
                       could continue to serve the national interest. Specifically, the



Page 4                                             Recommendations and Comments
           report did not recognize that the June 2002 agreement was part of
           an objective to prepare the GCEP facilities for future privately-
           funded use and an element of an overall approach aimed at
           addressing the national challenge of stabilizing the domestic
           nuclear fuel industry. The agreement set broad guidelines and did
           not commit or specify activities necessary for GCEP cleanup.
           Finally, management indicated that a comprehensive baseline,
           which takes into account many of the concerns voiced in our
           report, had been prepared.

AUDITOR    Management's comments are responsive to our recommendations
COMMENTS   and the proposed corrective actions, when fully implemented,
           should improve management of the GCEP Cleanup Project and
           help improve the Department's control of costs. We acknowledged
           the Department's efforts in reusing the GCEP facilities and
           supporting the deployment of advanced enrichment capability.
           Therefore, we broadened our audit recommendation as suggested
           to account for the Department's reuse policies and added
           management's views to the body of the report where appropriate.




Page 5                                Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether actions taken
              and costs incurred by the Department were in accordance with the
              June 2002 agreement with the United States Enrichment
              Corporation, Inc.
SCOPE         We performed the audit from February 2 through September 30,
              2004, at the Oak Ridge Operations Office in Oak Ridge,
              Tennessee; the Portsmouth/Paducah Project Office in Lexington,
              Kentucky; and, the Portsmouth Gaseous Diffusion Plant in south
              central Ohio. The scope of the audit included the Department's
              actual and planned GCEP Cleanup Project activities from 2002
              through 2007.
METHODOLOGY   To accomplish the audit objective, we:
                •   Analyzed the June 17, 2002 agreement between the
                    Department and USEC;
                •   Discussed GCEP Cleanup Project activities with
                    Department and contractor personnel;
                •   Observed GCEP Cleanup Project activities being conducted
                    at the Portsmouth Gaseous Diffusion Plant in Ohio;
                •   Analyzed contractor proposals, work authorizations, and
                    proposed baselines to determine the planned work and
                    estimated costs;
                •   Evaluated the Department's project management practices;
                    and,
                •   Reviewed applicable Federal regulations, Departmental
                    orders, and implementing procedures and practices.
              We conducted the audit according to generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at
              the time of our audit. We did not rely on computer processed data
              to accomplish our audit objective.
              Finally, we assessed the Department's compliance with the
              Government Performance and Results Act of 1993. The
              Department did not establish specific performance measures
              related to the GCEP Cleanup Project.
              We held an exit conference with Environmental Management on
              March 2, 2005.


Page 6                               Objective, Scope, and Methodology
Appendix 2


                               PRIOR AUDIT REPORTS


   • Cold Standby Program at the Portsmouth Gaseous Diffusion Plant (DOE/IG-0634,
     December 2003). The audit disclosed that the Department had not clearly defined
     the termination point of the Cold Standby Program, and total program costs had
     almost doubled from initial project estimates, increasing by about $189 million.
     Similarly, the Department had not: formally updated program mission requirements;
     assigned responsibility of the program to a single organization; executed the most
     cost effective procurement strategy; nor, developed a programmatic baseline.
     Without a well-defined endpoint and a formalized process for assessing the
     continuing need of the Cold Standby Program, the Department risks possible
     unnecessary extensions of the program or potential disruptions in the supply of
     enriched uranium. In fact, if the Department decides to extend the Cold Standby
     Program until USEC deploys a full scale gas centrifuge plant, costs could increase
     from the initial $210 million estimate to over $600 million.




Page 7                                                              Prior Audit Reports
Appendix 3




Page 8       Management Comments
                                                                    IG Report No. DOE/IG-0678

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
